IN THE SUPREME COURT OF THE UNITED STATES
October Term 2020

CASE NO.

Eleventh Circuit Court of Appeals No. 19-10656
Southern District of Florida No. 18-cr-80153-WPD

DELSON MARC,

Petitioner,
vs. PROOF OF SERVICE
UNITED STATES OF AMERICA,

Respondent.
/

 

Petitioner Delson Marc, through counsel, certifies that the Petition for Writ of
Certiorari with Incorporated Appendix, the Notice of Appearance, the Certificate of
Word Count, and the Motion to Proceed In Forma Pauperis, all were served on all
parties required to be served, specifically The Solicitor General, by E-Mail on May

13, 2021 to SupremeCtBriefs@USDOJ.gov.

Dated: May 13, 2021 Respectfully submitted,

4s/ Sheryl J. Loweuthal
Sheryl J. Lowenthal

CJA Appellate Counsel for Mr. Marc
9130 S Dadeland Blvd. Suite 1511
Miami, Florida 33156-7851
Phone:305-670-3360
Fax:305-670-1314
Florida Bar No. 163475

North Fla. Office: 221 East Government Street Pensacola FL 32502
Ph: 850-912-6710

Page 2 of 2
